r\

>

w
No.

20-72711
IN THE

SUPREME COURT OF THE UNITED STATES

KEITH D. Barmore - PETITIONER
vs.

Sonja Nicklaus, Warden - PESPONDENT(S)

f/led

JAN - 5 2021
£mCEOFTHECLERK

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Keith D. Barmore,R-00683,
Dixon Correctional Center
2600 N. Brinton Ave
Dixon, IL 61021
(815) 288-5561

received
FEB 2 5 2021
S^REEMEFCTQl^RTLn^K

fi

J">

-U
QUESTION(S) PRESENTED
ARGUMENT I.

Whether Petitioner was deprived of his due-process of law, and a fair
trial, where the trial court never orally read the jury instructions to
the jury.
(1) Trial court never instructed the jury concerning first degree murder,
and lesser-including involuntary manslaughter.
(2) Where defense counsel never gave a standing objection, which was plain
error, and ineffective assistance of counsel.

ARGUMENT II.
Whether Petitioner Barmore, was denied due process of law, and a fair
trial, where in his final argument the prosecutor misstated the law, with
a improper argument.
(1) Where the trial court gave permission for petitioner to have a lesserincluded offense of involuntary manslaughter.
(2) Where the substantial prejudice caused by the prosecutor, that it would
"Dispicable" and allow the defendant to "escape responsibility".
(3) Petitioner's attorney never objected held to have denied petitioner
effective assistance of counsel.
ARGUMENT III.
Where Petitioner Barmore, was denied due process of law, by the ineffective
assistance of trial defense counsel, who failed to call a critical forensic
pathologist expert witness, who had cancer to testify for him.
(1) Where his defense counsel to Petitioner the forensic pathologist was
ready for after two years continuances.

v

i>

QUESTON(S) PRESENTED

(2) When . Petitioner was brought out for trial the defense counsel to petition
the Forensic Pathologist expert was not coming.
(3) Petitioner told the defense he was not going to trial without the forensic
pathologist, defense said he would have trial without him present.
ARGUMET IV.
Whether Petitioner Barmore was denied due process of law, and violated under
the statutory requirements of 18 USC § 241 and 18 US.C § 242. Due to the conspiratorial
deprivation of Federal and State constitutional and statutory rights and liberties
by State Officials, acting under color of State law, and Federal law.
(1) Which includes Petitioner's trial judge, who now is a US District Court
Judge, who was very bias and prejudice in this case as a whole.
(2) And now works with a senior judge in the US District Court who's son
is a third degree relationship. Where his son was my wife's State Attorney
who had her sign a no-contact clause, before she was let out of jail on a
bail bond, and was my judge on my writ of Habeas Corpus, who fabricated my
case of 12 issues by bias and prejudice, where I did not receive fair and
adquate hearing.

0

l*

TABLE OF CONTENTS
1

OPINIONS BELOW

'

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

£
4'§

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

26

INDEX TO APPENDICES
APPENDIX A

Seventh Circuit Court of Appeals-f (Opinion) .

APPENDIX B

Northern Western Division Of Illinois (Opinion).

APPENDIX C Rehearing (denial)^Seventh Circuit Court of Appeals.

APPENDIX D Dissenting Justice Bowman(2nd Dist Appellate Court).

APPENDIX E Corrected Docketing Statement.seventh Circuit Court of
Appeals.
APPENDIX F Rockford Police report ,-Dave Reinhard,Judge Philip G.
Reinhard,Dave Reinhard,is a States Attorney,.Judge
Philip G.Reinhard's son. (Relationship)..
Appendix G Rehearing for En Bancawas granted and mandate recalled
Septer 18,2020.
Appendix H Reconsideration(Northern Western Division(Denied).
Appendix I Order Northern Western DIVI§10n denied Certificat of
Appealability and all motion(Denied).

■i.'1

TABLE OF AUTHORITIES CITED
Page.
Cole v,Young,817 F.2d 412 (7th Cix‘.1997)......................

6

United States v.Murphy,768 F.2d 1518 (7th Cir.1985)

7

James v.Kentucky,466 U.S.341,104 S.Ct.1830,80 L.Ed 2d 346 (1984)
7
Keeble v.United States,412 U.S.205,93 S.Ct.1993,36 L.2d 844 (1973
8
Johnson v.United States,520 U.S.461^117 S.Ct.1544,137 L.Ed,2d 718
(1997)

9

Strickland,Id.at 696,104 S.Ct.2052,80 L.Ed.2d 674 (fi984)..8
Strickland,Id.at.693,697, 104 S,Ct.2052,80 L.Ed.2d 674........... 9
U.S. v.Johnson,713 F.3d 336 (7th Cir.2015)...................................

9

In Re Winship,397 U.S.364,25 L.Ed.2d 368,90 S.Ct.1068 (1970)
10
Duncan v.Louisiana,391 U,S.145,88 S.Ct 1444,2 L.Ed„491 (1968)
- 10
Keeble v.United States,412 U.S.205 (1973)

11

United States v.Young,470 U.S,105 S.Ct.1038,84 L.Ed,2d 1 (1985)
41,12
SQnsome v,United,380 U.S, 343/349; 13 L.Ed.2d 882,85 S.Ct 1004
(1965).............................................................. ............................................... ..

13

Berra v.Uiiited States,351 U.S. 1 31,134, 1 00 L.Ed.1003,76 S.Ct.685
13

(1956)............................................................................................................
Stevenson v.United States,162 U.S.313/40 L.Ed,980,16 S_.Ct.839
(1896) , .

.,.,13

Woolley v.Rednour,702 F.3d 411,420-21 (7th Cir.2012)

i

‘*13

I,

Cont-TABLE OF AUTHORITIES CITED
Page.
Strickland v.Washington,466 U.S.668,687,688,694,104 S.Ct.2052,
80 L.Ed.2d 674 (1984)

13,15,18,19

Thomas v.Clements,789 F.3d 760 (7th Cir.2015).
Strickland, 466 U.S.at 687-88..................................................

.. 14
15

Washington v.Smith,219 F.3d 620,627 (7th Cir.2000)...

15

Stricland,466 U.S.at 695..................... ..

15

Woolley v.Rednour............................................ ..
Woolley v.REdnour,702 F.3d 411,420-421 (7th Cir.2012)

16
.16

Boss,263 F.3d.at 742,...................................................................

16

Hannon v.Cooper,109 F.3d 330,335 (7th Cir.1997)...........

16

Hall v.Washington,106 F.3d 742,742 (7th Cir.19S7)....

16

Williams v.Taylor,529 U, S. 362, 407-08, 1 46 L.Ed..2d 389,120 S.Ct.149
(2000)............. ...................................................................................
Williams,529.at 391.............................................................

16
.16

Washington, 21 9 F.3d .at 627............... ...............................
Clements,789 F.3d 760 (7th Cir.2015)................

16

Marion,404 U.S.307,92 S.Ct.455,30 L.Ed 2d 468 (1971)

17

Dickey v.Flordia,398 U.S.30,90 S.Ct.1564,26 (1970)..

18

Thomas

Chapman v. California, 386 U.S.18,87 S.Ct.824,17 L.Ed.2d 705(1967). 18
18

Smith v.Hooey,393 U.S.374,89 S.Ct.575,21 L.Ed.2d 60 (1969)

United States,v.Marion,404 U.S.307,92 S.Ct.455,30 L.Ed.2d 468 (19
18
United States v.Lavasco,431 U.S.783,789,97 S.Ct.2044.52 L.ES,2d
18

(1977)
THdmas-v.Clements,789 F.3d 760 (7th Cir.2015)......

ii

• • » *• 19

1
■

if

Cont- TABLE OF AUTHORITIES CITED
Page,
Liteky v.United States,510 U.S„540,114 5.Ct.1147,12 L,Ed;2d 474
(1994)

20

United States v.Ginnell Corp,384 U.S.563,568,16 L„Ed.2d 778,86 S.
Ct.1698 (1966).

23

United States v.Price,383 U,S.787,86 S.Ct.1152,16 L.Ed.2d 267
(1966)

* 25

Brokaw v.Weaver,305 F.3d 660 (7th Cir.2002)

26

Baiiy v.Andrews,811 F,2d 366,369-70 (7th Cir.1987)„...

..,.26

STATUTES AND RULES
FRAP 35 (1 ) (2) (f) . .

A

U,S, Const.Am 14th

,6

725 ILCS 5/115-4 (i)

6/7; 8
r

Fed.R.Crim.P.52 (b)..

.. 9

720 ILCS 5/9-3 (d)(1)(1998)

12

130 ILCS 5/5-8-1 (a)(5)(1998)

.12

Fed..RcCRim.P. (31 ) (c)

■12

U.S.C.A. Am.6

17

riUaj<S.v C. A. Cons t. Am. 6

17

SIXTH Am

17

FIFTH Am

17

FOURTEENTH Am ,. .

17

U.S.Const.VI

17

18 USCA s 241.,

20
20

18 USCA s 242
28 s 455 (a)(b)(1)(2),(5)(5)(iii)

20,. 21
. ..22

Rial©. 59.E„ .

22

455 (b)(2)(b)(5)(b)(5)(iii)
iii

*
• u

Cont- TABLE OF AUTHORITIES CITED
Page.
Due Process Cluuse Fourteenth Amendment

24

18 USC 241

24

18 USC 242

24

28 s 455 (a)(B)(1)(2),(5)(5)(iii)

24

18 USC 242

25

42 USC 1983

25

18 USC 241

25

OTHER
Prosecutor's conduct and utterances always reviewable by the
ABA Standards for Criminal justice 3-1.1 (b)(2d Ed. 1980).
11,12
for he is both and?adminstrator of justice and an aadvocate.

iiii

■ i-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPIMIOMS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _£— to
the petition and is
[X] reported at Seventh Circni t Court- of.-Appeals—; or,
[ ] has been designated for publication but is not yet reported; or,
[xl is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[x!

---- to

nivisinn of T1 1 i nni;<33r,

*r\

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[- J For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _____ to the petition and is -■
! or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

> 'i

&

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was August 20f2020f.____
[ ] No petition for rehearing was timely filed in my case.
[x\ A timely petition for rehearing was denied by the United States Court of
October 15,2020,. f and a copy of the
Appeals on the following date:
order denying rehearing appears at Appendix JL
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2,

t
•* ?

CONSTITUTIONAL AMD STATUTORY PROVISIONS INVOLVED
U.S.Const.Am.V.
The Fifth Amendment provides that no person shall be compell­
ed in criminal case to be a witness against himselfcU:S.Const.
Amend. V
U.S.Const.Am.VI.
The Sixth Amendment to the United States Constution provides
in pertinent part as follows:
In all ciminal prosecutions,the accused shall enjoy the right
to speedy andapublic trial,...and to have the assistance of coun­
sel for his defense.
U.S.ConstAm XIV.
The Fourteenth Amendment to the United States Constitution pr©
vides in pertinent part as follows:
...nor shall any State deprive any person of life,liberty or pro­
peer ty,without due process of law.

3.

♦

'

< •

On May 11,2015,petitioner filed a 28 U.S.C. s2254 petition in
the United States District Court for the N5i^Ke:r.n District of Illinois
Western Division Case No.15-CV-50108,that was denied July 12,2017,
and filed a timely 59 E reconsideration mation that was denied Sep­
tember 5,2017,. Petitioner then filed a timely Notice of Appeal and
it was denied Semptember 20,2017,.Petitioner then filed a timely
Application for Certificate of Appealability,Motion for Production
of Record on Appeal,Motion for Leave to Appeal in Forma Pauperis,
Motion for Apointment of Counsel,Motion Jurisdiction Statement,
Motion for Docketing Statement,in the Seventh Circuit Court of Ap
-peals in Case No.17-2922,timely filed and denied August 20,2020.
Petitioner then filed a timely Rehearing and En Banc petition on
September 15,2020,and it was granted September 18,2020?and the man­
date is recalled.On consideration of the petition for rehearing a
for rehearing En Banc file on September 18,2020,no judge in active
service has requested a vote on the petition for rehearing En Ban
Judge Kane has voted to deny panel rehearing.Judge Scudder,who has
been substituted for judge Barrett,likewise has voted to deny panel
rehearing,denied on October 15,2020.
Petitioner filed the Rehearing and En Banc pursuant to Rules
of Appellate Procedure,under Rule 35 (2) the proceeding involves
a question of exceptional importanceand subsection (1).En Bamc consideration is necessary to secure or maintain uniformity of Court
decision.Subsection (f) Call for a vote.A vote need not be taken
to determine whether the case will be heard or reheard en banc un-

4.

I

less a Judge call for a vote.
Petitioner's request that his reconsideration be done on banc
that every judicially trained mend sitting on that Court be brought
to clear focus on the^issues and arguments which languished appro­
ximately three years before that tribunal,three years delay with­
out a word beyond "denied" is not representative of the values of
an innocent man's life.This is not a case of obtuse or arcane sub­
verted by conflict of interest and conspiracy.

5.

REASONS FOR GRANTING THE PETITION
-V*

:

ARGUMENT,. I .

3

Petitioner Barmore,was deprived of his due process of law con­
stitutional rights.Where the trial court never orally read the :
jury instructions to the jury by Illinois Statute 725 ILCS 5/115—
4 (i),concerning First Degree Murder,and the lesser included of­
fense allowed by the trial court of involunatary Manslaughter,and
reasonabl doubt.Whether the constutional deprivation is charaterized as a denial of due process of law. Where defense counsel never
gave a standing objection,which was plain error,and ineffective assi­
stance of counsel(discussed B,infra),.
QuotingrCole v.Young,trial court in a criminal case,in order
to afford defendant a fair trial,bears burden:; of seeing that jury
is instructed on elements of crime charged,on presumption of inno­
cence, and on question of burden of proof,and failure by court to
properly instruct on any of these key elements cast doubt or whether
defendant receive fair trial.
Complete failure to give any jury instruction on essential ele­
ment of offense charged,under circumstances indicating that jury
was not otherwise informed of necessity of proof of

elements,is

violation of due process,U.S.C.A.Const.Amend.14.Cole v.Young,817
F.2d 412 (7th Cir.1987).
A.PETITIONER’S JURY TRIAL WAS IN VIOLATION OF DUE PROCESS OF
iiAWplSGE TO THE TRIAL JUDGE NEVER READ THE JURY INSTRUCTIONS
TO THE JURYsORALLY AS TO THE LAW.725 ILCS* 5/115-4 (i).
Factually this case is straight forward.Petitioner Barmore, was
charged with a crime of First Degree Murder,and the court allowed
him a lesser included

offense,of involuntary Manslaughter. Where the

judge, after closing arguments never orally read the jury instruct'

6.

4*

tions to the jury,and only sent jury instructions for jury to read,
And the jury sent several questions in writing'on issues with
the jury instructions they did not understand,regarding First De­
gree Murder,and the second proposition the words that "when the de­
fendant

did so,"it is circled and the question is,"Does that mean

the defendant has to know "instantly and not at some later point?
The court answers Please follow the plain meaning of the language of the instructions.

Petitioner's defense counsel provided ineffective assistance
of counsel rihts here,and never objected to the:judge nbt given the
Illinois statute 725 ILCS 5/
jury instructions orally. Where the
115-4 (i)(after arguments of counsel the court shall instruct the
jury as to the law). When the judge did not verbally instruct the
Murder,and Involuntary
jury concerning the elements of First Degree
Manslaughter,and Reasonable Doubt.
QuotingtUnited States v. Murphy,In most jurisdictions,prior to
closing argument,the trial court will decide what instructions will
be read to the jury.United States v.Murphy,768 F.2d 1518 (7th Cir
1985).
Quoting: James v.Kentucky; Instructions set forth the legal rules
governing the outcome of a case .They state what the jury must beverdict in favor of the'
lieve from the evidence in. order to return a
party who bears the burden of proof.The judge reads the instruct
tions to the jury at the end of the trial,and provides it a written copy.James v7.Kentucky,466 U.S.341,104 S.Ct.1830,80 L.Ed.2d?
346 (1984).

7.

Quoting:Keeble v.United States,A defendant is entitled to an instruction on lesser included offese if the evidenec would permit
jury rationall to find him guilty of the lesser offese and aquit
him of the greater.
Effect of failure or refusal of court,in robbery presecution,
to instruct on assault and battery.The court reversed the judgment
of the court of appeals and remanded the case for further proceed­
ings.see Keeble v.United Statas,412 U.S.205,93 S.Ct.1993,36 L.Ed.
2d 844 (9173).
B^ PETITIONER'S DEFENSE COUNSEL NEVER GAVE A STANDING OBJECTION
WHICH WAS PLAIN ERROR,AND INEFFECTIVE ASISTANCE OF COUNSEL.A
DUE PROCESS OF LAW THAT EFFECTED PETITIONER'S SUBSTANTIAL
RIGHTS,WHERE THE JUDGE NEVER READ THE JURY INSTRUCTIONS.
Petitioner argues Strickland v.Washington,the Supreme court es­
tablished the standard for evaluating claims of ineffective assi­
stance of counsel.The defendant must show the :(1).that counsel's
assistance was unreasonable considering all the circumstances of
ths ’case,and (2).that "there is a reasonable probability that,ab­
sent the errors,the factfinder would have ’had a reasonable doubt
respecting guilt.see Strickland v.Washington,466 U.S.668,687,104
S.Ct 2052,80 L.Ed.2d 674 (1984).
Petitioner further argues where the Illinois Statute 725 ILCS
5/115 — 4(i) states:(after arguments of counsel the court shall in­
struct the jury concerning the law).Had defense counsel gave a
standing objection the court could have followed the’Statute and
r;ead the jury instructions an instructed the jury concerning the
law.Solving the problem the jury had with its.misunderstanding of *in two parts which was circled: "Does that
mean the defendant has to know "instantly and not at some later
point? "The Court answers Please follow the plain meaning of the
language of the instructions,this is what the defense counsel and
8.

t’

•

•

states prosecuting attorney agreed upon.Contrary to constitution­
al law a substantial deprivation of petitioner's Barmore's due pro­
cess rights.
Quoting:Johnson v.United states,under Fed.R.Crim.P. 52 (b),be=
fore an appellate court can correct an error not raised at trial,
--

there must be (1)."error\" (2).that is plain,"and (3).that "affect
substantial rights.If all three conditions are met,and appellate
court may then exercise its discretion to notice a forfeited error
but only if (4).the error seriusly affects the fairness,integrity
or public reputation of judicial proceedings.Johnson v.United States,
520 U.S.461,117 S.Ct.1544,137 L.Ed.2d 718 (1997).
Strickland ask whether it is reasonably likely"the resualt would
have been different. Id.,at 696,104 S.Ct.2052,80 L.Ed.2d.674 (1984).
This does not require a showing that counsel's actions " more likely
that altered the outcome,"but the difference between Strickland pre­
judice standard and more proble-than-not standard is slight and
matters "only in the rarest case. "Id.,at 693,697,104 S.Ct.2052,
80 L.Ed.2d 674.The likelihood of a different result must be substantial,not just conceivable.Id • t at 693,104 S.Ct.2052,80 L.Ed.2d.
674.
Quoting:U.S. v.Jones,Establishing error requires showing that
the error affected a substantial right,and moreover,impacts the
fairness,integrity,or public repuration of judicial.The court of
appeals will overturn a jury verdict for insufficiency of evidence
only if the record is devoid of evidence from which a reasonable
jury could find’guilt beyound a reasonable doubt.U.S.vJohnson,713
F.3d. 336 (7th Cir.2013).

9.

V

Quoting:United States v. Verkuilen, relievihg the government of
its burden of proving every fact necessary to constitute the of­
fense charged beyond a reasonable doubt.In Re Winship,397 U.S.364
,25 L.Ed.2d 368,90 S.Ct.1068 (1970).

Quoting:Duncan v.Louisiana, without an instruction that performed
this minmal task,the defendant's right to a jury determination of
guilt or innocence a right protected by the fourteenth amendment's
due process clause.Duncan ViLouisiana,391 U.S.145,88 S.Ct.1444,2
L.Ed 491 (1968).
ARGUMENT II.
Petitioner Barmore,was denied due process of law,and a fair
trial,in his final argument to the jury,prosecutor Glenn Weber,
misstated the law and ridiculed petitioner's right to present a
defense. Where petitioner asked for,and received,permission from
the trial court to instruct the jury on the lesser-included offense of involuntary manslaughter.The substantial prejudice caused
by the prosecutor's argument to the jury that an involuntery man­
slaughter verdict would be "Despicable" and allow the defendant to
"Escape responsility". Petitioner was provided with ineffective as-?-—
sistance

ocounsel failed to object,to preserve the error should

be held to have denied petitioner effective assistance of counsel
(discussed B,infra),.
Quoting:Keeble v.United States,Adefendant is entitled to an in­
struction on a lesser included offense if the evidence would per­
mit a jury rationally to find him guilty of the lesser offense and
acquit him of the greater.Keeble v.United States,412 U.S.205,93 S.
Ct.1993,36 L.Ed.2d.844 (1973).

10.

A.PETITIONER SUFFERED A SUBSTANTIAL RIGHT OF DUE PROCESS OF
PREJUDICE CAUSED BY THE PROSECUTOR'S IMPOPER ARGUMENT THAT
MISSTATED LAW.
Petitioner Barmore,acting within his lawful right,(s£e,e.g.,
Keeble v.United States,412 U.S.205 (1973)(defendant entitled to
instruction on lesser-included offense)),the petitioner asked for
and received, permission from the trial court to instruct the juryon the lesser-included offense of involuntary manslaughter.(C.18081
1823). Not satisfield with the court's ruling on this point,in his
final argument,the prosecutor calledlthe petitioner's conduct
"Reyond comphensiion...(and)despicable ,"and remarked:"But what is
even more despicable about this abuse is this abuser's attemp to
play with the system here and go and get an involuntary manslaughter
conviction,Escape responsibility for delivering that abuse."(1873).
These comments went beyond the bounds of propiety,the prosecutor's
improper argument affected the outcome of the case.see(Rule 23
Order,filed July 3,2002),(Justice Bowman dissenting):Here/however
the only evidence of defendant's anger was O.D.'s testimoney that
he observed defendant shaking Kevon and asking him why he going
back to his bldihabits. There was no evidence of prior verbal or
physical abuse and no evidence of defendant's hatred or desire to
seriously injure Kevon.Consequently,I do not believe the evidence
showed defendant was "driven by his bad temper" to injure or kill
the victim.See(Rule 23 Order,filed July 3,2002,at page 27),3 I
would reverse defendant's conviction and remand for a new trial.see
(Rule 23 Orderr,filled July 3,2002?at page 28^seerat Appendix D$£?D5.
Quoting:Unite States v.Young,THe prosecutor's conduct and ut­
terances ,however,are always reviewable on appeal,for he is both an

11 .

adminstrater of justice and an advocate.ABA'1 statndards for crimi­
nal justice 3-1.1 (b)(2d ed. 1 980f>.United States v.Young,470 U.S.
105 S.Ct.1038,84 L.E.2d 1 (1985).
B.PETITIONER WAS PROVIDED WITH INEFFECTIVE OF COUNSEL WHO FAILED
TO OBJECT/TO PRESEEVE THE ERROR SHOULD BE HELD TO HAVE DENIED
PETITIONER EFFECTIVE ASSISTANCE OF COUNSEL,'SUE PROCESS OF LAW,7
To
PROSECUTORS IMPROPER ARGUMENT.
t
•
Petitioner's defense counsel was ineffective assistance of coun­
sel, because,after

the prosecutor argued the improper argument he

should objected immediately,because the law plain and explicit in
. L' i?.

that petitioner was acting within his lawful right, see, e. g., Keeble.
v.United States,412 U.S.205 (1973)(defendant entitled to instruc­
tion on lesser-included offense)),the petitioner asked for ,and re­
ceived, permission from the trial court to instruct the jury on the
lesser included offense of involuntary manslaughter.(C.1808-1823)
Defense counsel knew finding the petitioner guilty of involun­
tary manslaughter,rather than first degree murder,would allow him
to "escape responsibility" constituted a misstatement of law. As
Keeble and its progeny make abundantly clear,a person charged with
a criminal offense has an absolute right to request an instruction
on a lesser-included offense,and that right cannot properly be termed
an attemp to "play with the system". Moreover,the consquences of
a conviction are far from an "escape (of) responsibility." involun­
tary manslaughter is a class 3 felony,720 ILCS 5/9-3 (d)(1)(1998)
and as such is punishable by a range of sentence,including an ex^
tended term of as much as 10 years imprisonment.130 ILCS 5/5-8-1
(a)(5) (1998).
The Federal rules of criminal procedure expressively so prov£
ed,see Rule 31 (c )/anddefendant' s right to such an instruction has;

12.

•n
Been recognized:in numererous decisions of this court.see Sonsome
v.United States,380 U.S.343,349,13 L.Ed.2d 882,85 S.Ct.1004 (1965)
Berra v.United states,351 U.S.131,134,100 L.Ed.1003,76 S.Ct.685
(1956);Stevenson v United States,162 U.S.313,40 L.Ed.980,16 S.Ct.
839 (1896).
Petitioner has shown that (1).his counsel's performance was de­
ficient ,meaning it fell below the objective standard of reasonable
ness (the "performance prong"),and (2).that he was prejudiced by
the deficient performance (the "prejudice pong").Woolley v.Rednour,
702 F.3d. 411,420-21 (7th Cir.2012).see Strickland v.Washington,
466 U.S. 668,687,688,694,104 S.Ct.2052,80 L.Ed.2d 674 (9184).

I

13.

ARGUMENT III.
Petitioner Barmore,was denied due process of law,by the inef­
fective assistance of trial defense counsel,who failed to call a
critical Forensic Pathologist expert witness,who had cancer to testify
for him.Where his defense counsel told petitioner the Forensic Pa^
tholigist was ready fox-iStiailrSf-feer two years of continuances, but when
petitioner was brought out for trial the defense counsel told pet­
itioner the Forensic Pathologist expert witness was not coming.
Quoting: Thomas v. Clements, the court of appeals, Williams, Cir-?cuit judge,held that:(1).de novo reiew,rather than deferential re­
view under the Antiterrorism and Effective Death Penalty Act (AEDPA),
applied to ineffective asstsance of counsel claim,and (2).defense
counsel's failure to consult with pathologist or other medical ex­
pert as to whether victim's d^ath could have resulted from accident
deprived defendant of effective assistance of counsel.Thomas v.
Clements,789 F.3d.760 (7th Cir.2015).
A,. PETITIONER WAS PREJUDICED BY INEFFECTIVE ASSISTANCE OF COUN­
SEL, DENIED DUE PROCESS OF LAW AN OBLIGATION TO ENSURE THAT IN
DIGENT DEFENDANT HAS A "FAIR OPPORTUNITY TO PRESENT A DEFENSE
Petitioner was told he could not have a fair trial without the
assistance of an expert witness a Pathologist.Counsel's represent­
ation fell below an objective standard of reasonableness and pre­
judiced the defense,for failing to call an expert to testify the
cause of death was accidental.Where the Forensic Pathologist expert
had been retained by prior attorney's for two years.THe Pathologist
had cancer,that why so many continuances,was suppose to testify for
my trial.Where defense counsel came and told me the petitioner abgiilfe
that the Pathologist was ready for trial I was happy.But when I
got brought to the trial from the jail,the defense counsel told me
14.

the Pathologist expert witness was not coining.Petitioner told the
defense counsel he would not go to trial without the Forensic Pas
thologist expert witness.Defense counselor told petitioner he would
have trial without ljijra present. So petitioner was forced to go to trial
without his retained Forensic Pathologist expert witness.Defense
counsel had the opportunity to find another Forensic Pathologist
but he would not listen to me period.Ihstead defense counsel acted
like he was the expert witness,but not in my favor.
Here, Petitioner argues that he was denied the effective assi­
stance o'fftrial counsel; In Strickland v.Washington,466 rU.S. 668,68§,
80 L.ED.2d 674,1 04 S.Ct.2052 (984), the Uriited States Supreme Court
stated that the benchmark for judging a claim of ineffective assi-stanceeof counsel is whether "counsel's conduct so underminded the
proper functioning of the adversarial process that the trial can­
not be relied on as having produced a just result". A claim of in­
effective assistance of counsel requires a showing that (1).coun­
sel ' s representation fell below an objectiveestandard ofpreasonabeness and (2).the deficient performance prejudiced the defendant.
Strickland,466 U.S.at 687-88;Washington v.Smith,219 F.3d.620,627
(7th Cir. 2000). "strickland, 466 U.S.at 691>l,WRere' evidence presented
at trial was closely balanced,it is more likely that an attorney's
deficient performance was prejudicial.
Quoting:Woolly v.Rednour,to limit secondguessing,a court aniyzing an ineffective assistance of counsel claim must judge the reasonabeness of defense counsel's challenged conduct on facts of the
particular case,view as of the time of counsel's conduct.U.S.C.A.
Amend.6.(1 ).his counsel's performance was deficient,meaning it fell
below the objective standard of reasonableness (the "performance

15.

prong"),and (2).that he was prejudiced by the deficient performance
(the prejudice prong").Woolley v.Rednour,702 F.$d.411,420-421
(7th Cir.2012).
Ufi answerering this question,this court must consider whether
the decision is !=at least minimally consistent with the facts and
circumstances of the case" or "if it is one of serveral equally plau­
sible outcomes."Boss,263 F.3d. at 742,quoting Hennon v.Cooper,109
F.3d.330,335 (7th Cir.1997),and Hall v.Washington,106 F.3d.742,742
(7th Cir.1997). "Careful review of the evidence and the reasons sup­
porting the decision is required in detremining the rea;sonablenes
of a state court decision."Boss,263 F.3d.at 742.
Quoting: Williams v.Taylor,Reasonableness is judged objective
ly,not subjectively:see Williams v^Taylor,529 U.S.362,407-08,1 46 L,
Ed.2d.389,120 S.Ct.1495 (2000).The rule set forth in Strickland,is
"clearly established Federal law,as determined by the Supreme Court
of the united States" .Williams, 529'

S . at 391 ; Washington, 21 9 F.3d.

at 627.
Still Quoting:Thomas v.Clements,In analyzing the deficient per­
formance prong of an ineffective assistance of counsel claim,defense
counsel should be/sttongly presumed to have rendered adequate assi­
stance and made all significant decisions in the exercise of reason­
able professional judgment;to overcome the presumption,a defendant
must show that counsel failed to act raesonably considering all the
circumstances.U.S.C.A.Const.Amend.6.Thomas v.Clements,789 F.3d.760
(7th Cir.2015).

16.

B.PETITIONER'S SPEEDY TRIAL RIGHTS'S WERE VIOLATEDrDUE PROCESS OF LAWfDUE TO INEFFECTIVE ASSISTANCE OF COUNSEL
Petitioner Barmore,was held against his speedy trial rights after
demanding to go to trial, for two years,wi^h all the continuances ',
t© in'ti?6duce & Forensic Pathologist, for such diverse purposes to
establish a medical intervening cause of death as a defense to a
murder i charge.Forced to take thesescontinuances where Forensic Pa=thologist who had cancer.And after two years of waiting to go to
trial,forced to go to trial without the Forensic Pathologist my ex­
pert witness,Prejudiced petitioner's speedy trial rights to a fair
trial.
Although the Sixth Amendment right to speedy trial,the due process Clause of the Fifth and Fourteenth Amendments,which quarantee
a fair trail,can playya role in protecting from oppressive prejudice
delay.To obtaine a dismissal for excessive delay at this preliminary
stage it must be shown that the delay was not justified,and that
actual prejudice "resulted from the delay.
QuotingrUnited States v.Marion, counsel never sought another ex:-,
pert witness or Forensic Pathologist,instead defendant's counsel
presnted himself as an expert.Marion,404 U.S.307,92 S.Ct.455,30 LEd.2d 468 (9171).
The U.S. Const.Amend,VI.three interests are protected by the
Sixth Amendment right to speedy trial.The first is the interest in
avoiding prolonged confinement of the accused prior to trial.The
second is the interest in avoiding prolonged psychological pressure
and public suspicioion of the defendant while the charges are pend­
ing against him.The third is the interest in diposing of defendant
case before the witness and other evidence are lost,that is,before
the defense is lost.
17.

Quoting Dickey v.Florida,we have indicated that "there are some
constitutional rights such as assistance of counsel during trial
so basic to fair trial that their infraction can never be treated
as harmless error^see-Dickey v.Flordida, 398 U.S.30,90 S.Ct.1 564,
26 L.Ed.2d 26M1970);Chapman v.California,386 U.S.18,87 S.Ct 824,
17 L.Ed.2d 705 (1967).
Quoting Smith v.Hooey,the Sixth Amendment guaranty of a speed
trial is an important safeguard to prevent undue and oppressive in­
carceration prior to trial,to minimize anxiety and concern accom?
Paying public accusation,and to1limit the possibility that long de­
lay will impair the ability of an accused to defend himself.Smith
vrf-gHooey, 393 U.S 374,89 S.Ct 575,21 L.Ed. 2d 607 ( 1 969 ) ,-United States
v.Marion,404 U.S.307,92 S.Ct.455,30 L.Ed.2d 468 (1971).
Quoting:United States v.Lavasco,(mere passage of time does not
constitute actual prejudice) .If prolanged delay adversely affects
defendant's ability to prepare,preserve,and present evidence in his
defense,his due process right to a fair trial mey be violated.
Proof of actual prejudice makes a due process claim concrete and
ripe for adjudication,not automatically valid.Proof of prejudice
is generally a necessary but not sufficient element of a due pro­
cess claim, and the due process inquiry must consider the reasons
for the delay as well as the prejudice, to the accused.United States
Lavasco,431 U.S.783,789,97 S.Ct.2044,52 L.E.2d 752 (1977).
Quoting:Strickland v^Washington,Reguarding the Strickland stan­
dard, a" petitioner does not need to show that the result of the trial
"would have been different "but rather that there was remarkerable
probability that the results of the trial would have been different*

18.

Failure to conduct an adequate investigation and present avail­
able evidence favorable to the defense constitutes ineffective as­
sistance of counsel.Strickland v.Washington,466 U.S.668,104 S.Ct.
2062,80 L.Ed22d 674 (1984).
In closing petitioner further argues quoting:Thomas v.Clement,
defense counsel has a duty to make reasonable investigations or to
make a raesonable decision that makes particular invetsigations unnecessary.U.S.C.A. Const.Amend.6. Thomas v. Clements, : 7S9F. 3d 760
(7th Cir.2015).

19,

&&UMENTIV.
Petitioner Barmore's denied due process clause of the Fourteenth Amendment
protected by the Constitution of laws of the United States, violated under
the statutory requirements of 18 USCA § 241 and 18 USCA § 242. Due to the
conspiratorial deprivation of Federal and State constitutional and statutory
rights and liberties, by state and County officials, acting under the color
of state And federal law.
Petitioner's trial judge is now a United States District Judge and United
States District Court judge Philip G. Reinhard who denied my writ of Heabeas
Corpus - who's son is States Attorney Dave Reinhard, who was my wife's States
Attorney in this same case. Both judges being colleague's were on conflict
of interest in my case as a whole. Where such bias and conspiracy is allowed; U
petitioner did not receive a fair and adquate hearing pursuant to 28 § 455
Disqualification of justice, judge or magistrate judge (a)(b)(l)(2), (5)(5)(iii)
'Quoting: " Liteky v. United States, for purpose of determing whether to
disqualify a Federal judge under 28 USCS 455, the judge's impartiality cannot
reasonably be questioned under 455 (a) simply on the basis that one of the
parties is in the fourth degree of relationship to the judge, because (1)
455(a)(5), which address the matter of relationship spicifically, ends the
disability at the third degree of relationship, and (2) that should govern
for the purpose of 455 (a) as well; thus, under 455 (a) as under (b)(5),
the fourth degree of kinship will not do. Liteky v. United States, 510 U.S.
540, 114 S. CT. 1147, 127 L.Ed.2d 474 (1994).

20.

A. PETITIONER'S DISTRICT COURT SENIOR JUDGE WAS RELATED WITH IN THE
THIRD DEGREE, HIS SON WHO WAS MY WIFE'S STATE'S ATTORNEY IN THE SAME
CASE. AND PETITIONER'S TRIAL JUDGE IS NOW ALSO A DISTRICT COURT JUDGE
IN THE SAME U.S. DISTRICT COURT NORTHWESTERN DISTRICT WHO HAS DEPRIVED
PETITIONER OF HIS DUE PROCESS CLAUSE OF THE FOURTEENTH AMENDMENT PROTECTED
BY THE CONSTITUTION OR LAWS OF THE UNITED STATES.
Petitioner was denied due process clause of the 14th. Amendment protected
by the Constitution or laws of the United States. Where pursuant to 28 §
455 Disqualification of justice, judge, or magistrate judge, (a) Any justice,
or magistrate judge of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned.
Petitioner's trial judge Frederick J. Kapala, who is involved in most all
petitioner's 12 exhaustive issues, from the circuit court of Winnebago 17th
Judicial

was very bias toward petitioner's case as a whole. Who now is a

U.S. District Court Northwestern District of Illinois who work with his comrade
Senior Judge Philip G. Reinhard.
(b). He shall also disqualify himself in the following circumstances: (1).
Where he has a personal bias or prejudice concerning a party, persoanl knowledge
of dispute evidentiary facts concerning the proceeding; petitioner filed
a writ of Heabeas Corpus on the front of the proof/service certificate. Petitioner
put conflict of interest: For his prior trial judge Frederick J. Kapala,
and Affidavit. But petitioner did not know that his wife , now ex-wife's
State's Attorney in the same case.see Rockford Police report,Appendix F-1 *
On a different charge was States Attorney Dave Reinhard, was the son of senior
Judge Philip G. Reinhard, of the U.S. District Court Northwestern District
of Illinois who became my judge on my writ of Heabeas Corpus, who after 2
years denied my 12 issues, and fabricated a very essential parts of my case
that I abused my children, which is testimony from the same defense counsel
21.

' l’

that sabotaged ray case as a whole. Where petitioner filed numerous motions
of conflict of interest against this attorney to Judge Frederick J. Kapala,
would not grant a motion until he wrecked my trial no expert doctor nothing.
Then after trial Judge Fredrick J. Kapala granted a motion for conflict of
interest on this attorney that lied on me testifying against me. see Order
Statement - opinion filed by Judge Philip G. Reinhard.who made it impossible
for me to file :a application for a certificate of appealability..And did
not entertain my reconsideration 59 E until the 7th. Circuit, said he had
overlooked my petition an with the notice appeal that was the second motion
on the Proof/Service certificate. Allowed me

to withdraw the notice of appeal,

and order Judge Philip G. Reinhard, to review my reconsider 59,E motion which
was denied

immediately, (b)(2). Where in private practice he served as a

lawyer in the matter in controversy, or a lawyer with whom he previously practiced
law served during such association as a lawyer concerning the matter, or the
judge or such lawyer has been a material witness concerning it - both judges
named above, see at Appendix E1-E3.
(b)(5). He or his spouse, or a person within the third degree of relationship
to either or them, or the spouse of such a person: senior Judge Philip G.
Reinhard, the father of the States Attorney dave Reinhard, who worked at the
Winnebago County Circuit Court, of the 17th Judicial Circuit, who was my wife,
now ex-wife's States Attorney who had her sign a no-contact before he allowed
her to be bailed out of jail on the same case.
(b)(5)(iii). Is known by the Judge to have an interest that could be substantially
affected by the outcome of the proceeding, all the above named judges and
States Attorney, also every where I went to fight this case Judge Frederick
J. Kapala, was there the appeallible court Post-Conviction, plus the numerous
complaint's I filed against in the Judicial Inquiry Board, for which he was
22 .

the Chairman of the Board. Petitioner also filed numerous motions for substitution
of Judge, which my lawyer fought against me.
The prejudice judge Frederick J. Kapala, caused petitioner in his case no.
98-cf-1228.
Quoting: United States v. Ginnell Corp. (a) The doctrine applies to § 455 (a).
It was developed under § 144, which requires disqualification for person bias
or prejudice.

"That phase is repeated as a recusal ground in § 455 (b)(1),

and § 455 (a), addressing disqualification for appearance of partiality, also
covers"bias and prejudice." The absence of the word "personal" in § 455(a)
does not preclude the doctrine's application, since the textual basis for
the doctrine is the pejorative connotation of the words "bias or prejudice,"
which indicate a judicial predisposition that is wrongful or inappropriate.
Similary, because the term "partially" refers only to such favoritism as is
for some reason.
Wrongful or inappropriate, § 455 (a)'s requirement of recusal whenever there
exist a genuine question concerning a judge's impartiality does not preclude
the doctrine's application. A contrary finding would cause the statute, in
a significant sense to contradict itself. Since § 455 (b)(1) embodies the
doctrine, and § 455(a) dupicates § 455(b)'s protection with regard to "bias
and prejudice", pg. 543-553. United States v. Grinnell Corp., 384 U.S. 563,
568, 16 L.Ed. 2d 778, 86 S. Ct. 1698 (1966).

23.

T B. PETITIONER'S DUE PROCESS CLAUSE OF THE FOURTEENTH AMENDMENT, PROTECTED
BY THE CONSTITUTIONS OR LAWS OF THE UNITED STATES, VIOLATED UNDER BOTH
18 USC 241 AND 18 USC 242, DUE TO THE CONSPIRATORIAL DEPRIVATION OF

federal and state constitutional and statutory rights and liberties by
STATE AND COUNTY OFFICIALS ACTING UNDER THE COLOR OF STATE LAW AND FEDERAL LAW

Petitioner argues thatihis trial judge Frederick J. Kapala, who most of his
claims in his writ of Habeas Corpus, who was his trial judge in the Winnebago
County, Circuit Court of the 17th Judicial Circuit violated alot of my Constitutional
rights. An now is a US. District Court Northwestern District Judge. Who is
associated with the senior judge Philip G. Reinhard, who is also a judge in
the same US. District Court Northwestern District. Both are named in the
28 § 455 Disqualification of justice, judge, or magistrate judge, sections
(a)(b)(1)(2),(5)(5)(iii), and judge Philip G. Reinhard and his son States
Attorney Dave Reinhard. Who works in the Winnebago County Courthouse as a
prosecutor, was my wife now ex-wife's States Attorney. Who put a no-contact
order that my wife had to sign to get out of jail on bond or recogizance,
who is the third degree relationship to judge Philip G. Reinhard and Judge
Frederick J. Kapala a judge to have an interest that could be substantially
affected by the outcome. Where all three have been a conflict of interest
in my case as a whole.
Petitioner has deprived of his due process clause of the Fourteenth Amendment,
protected by the Constitution or laws of the United States violated under
both 18 USC 241, and 18 USC 242. Due to the conspiratorial deprivation of
Federal and State Constitutional and statutory rights and liberties, by state
and county officials, acting under the color of state law and Federal law.
____________ ___ —j

Petitioner'fehro.ugh'du,e diligence through many years found all this information
as a matter of fact. Pursuant 28.§ 455. Disqualification of Justice, judge
24.

or magistrate judge of the United States shall disqualify himself in any proceeding
in which his impartiality might reasonably be questioned.
Quoting United States v. Price, The phrase "under color of any statute, ordinance,
regulation, or custom" should be accorded the same construction in both 18
USC 242, which provides from criminal punishment of, and 42 USC 1983, which
give-a right of action against a person who, under color of state law subjects
another to the deprivation of any rights, privileges, or immunities secured
by the Federal Constitution.
The Federal Civil Rights statute (18 USC 241) which makes a conspiracy to
interfere with a citizen's right or enjoyment of any right or privilege secured
to him by the Constitution of laws of the United States a criminal offense,
must be accorded a sweep as broad as its language; this language includes
rights under the due process clause of the Fourteenth Amendment. United States
v. Price, 383 U.S. 787, 86 S. Ct. 1152, 16 L.Ed. 2d 267 (1966).
Quoting United States v. Price, both 18 USC 241 which makes a conspiracy to
interfere with a citizen's free exercise or enjoyment of any right or privilege
secured to him by the Constitution or laws of the United States a Federal
offense, and 18 USC 242, which makes it a Federal offense willfully to deprive
any person under color of law of the same rights, including presumably all
of the Constitution and laws of the United States. United States v. Price,
383 U.S. 787, 86 S. Ct. 1152, 16 L. Ed. 2d 267 (1966)
Both 18 USC 241, which makes a conspiracy to interfere with a citizen's free
exercise of enjoyment of any right or privilege secured to him by the Constitution
or laws of the United States a Federal offense. And 18 USC 242, which makes
it a Federal offense willfully to deprive any person under color of law of
the same rights, include presumably all of the Constitution and laws of the
25.

»

♦

United States. United States v. Price, 383 U.S. 787, 86 S.Ct. 1152, 16 L.
Ed. 2d 267 (1966).
Petitioner was not in light of such bias allowed a finding made
on the bais of a fair an adquate hearing.see Brokaw v.Weaver,305
F.3d 660 (7th Cir.2002);Baily v.Andrews,811 F.2d 366,369-70 (7th
Cir.1987).
To allow the order of the Seventh Circuit Court af Appeals to
remain would in effect inslate the bias and prejudice of judicial
injustice,and trial counsel from review for his inadequate repre­
sentation, and unfair aninadquate hearings.In addition,it would be
contradictory not only to decisions made by the Seventh Circuit /but
to the trend of this Court to ensure, adequate assistance of counsel
as well as right to a fair and adequate hearing. For the foregoing
reasons,it is respectfully submitted that the Petition for Writ of
Certiorari should be granted.
Respectfully aubmitted,
AiiLkj

Date:

January 5,2021.

26.

